Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




MEDICAL BILLING SOFTWARE AND
 PROCESSES USED TO PREPARE
           CLAIMS




                   JUNE GIBBS BROWN
                    Inspector General

                       MARCH 2000
                      OEI-05-99-00100
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago Regional Office prepared this report under the direction of William C. Moran,
Regional Inspector General and Natalie A. Coen, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

John M. Traczyk, Project Leader                         Jennifer Antico, Program Specialist
James Athas, Intern




        To obtain copies of this report, please call the Chicago Regional Office at 312-353-4124.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                     EXECUTIVE                          SUMMARY

PURPOSE

         To provide information about the different types of medical billing software and the
         processes used to prepare claims for submission to Medicare.

BACKGROUND

         Medicare leads all other health care payers in accepting and processing electronic claims.
         Medicare receives electronic claims directly from providers or via independent parties
         (billing agencies) acting on their behalf. In 1998, Medicare received and processed more
         than 700 million claims. More than 80 percent of these claims were submitted
         electronically using computer software developed for medical billing. Medicare also
         received 149 million Part A claims in 1998. Nearly all of which (96-97 percent) were
         submitted electronically.

         Medical billing software helps providers manage financial information and reduces errors
         on claims submitted to Medicare and some 2,800 other insurance companies. Medical
         billing software can be a standalone function or integrated with other aspects of medical
         practice such as patient medical records. It can be linked to the laboratory and other
         ancillary service areas. It can interface with other software that will analyze claims for
         completeness, accuracy and probability of being edited by Medicare. The use of
         computers and software in the field of medicine is growing rapidly. More and more
         medical providers are turning to electronic medical records. Ancillary equipment such as
         x-ray machines, laboratory testing equipment and other patient testing equipment and
         services will soon be linked electronically to the patient’s medical record.

         We reviewed software literature and claim preparation processes to determine whether
         Medicare may be vulnerable to claims generated by electronic systems. We looked for
         vulnerabilities in the billing process and for vulnerabilities in software used to generate
         claims.

CLAIM ORIGINATION

         We were unable to determine how many claims Medicare receives directly from medical
         providers or from third parties billing on their behalf. Medicare can identify providers who
         have a submitter number to bill electronically. However, this does not necessarily mean
         that the submitter number shown on a claim is actually the party that submitted



Billing Software                                    1                                      OEI-05-99-00100
         claims to the Medicare system. An unknown number of providers allow billing companies
         to use their submitter number. The potential for misuse of submitter numbers is a
         vulnerability not adequately addressed by Medicare.

         Medicare cannot identify most of the clearinghouses and billing agencies submitting claims
         into the Medicare systems. When clearinghouses and billing agencies submit claims to
         Medicare, they use the physician’s or medical supplier’s billing number and submitter
         number. Inability to assess whether a claim came directly from a provider, or passed
         through the hands of a third party, represents a vulnerability in Medicare program
         safeguards. Medicare cannot determine whether claims enter their system from an
         authorized biller's site and computer or from unauthorized sites and computers. Billing
         companies, their employees and employees of providers have access to patient and provider
         information needed to access the Medicare system. This information can be misused
         (without the medical provider’s knowledge) by clearinghouses or their employees to
         generate false claims.

BILLING PROCESSES

Source Documents

         Diagnostic and service information, about a patient visit, is rarely coded directly into
         medical billing software by physicians and other medical service providers. This
         information is usually conveyed to the person or entity responsible for preparing a bill via a
         “source document” completed at the end of the patient visit.

         Source documents can be preprinted forms completed by the physician or handwritten
         notes made by the doctor or notes made by other office staff for a physician. Whether
         formal, or informal, all source documents provide information needed for billing. The
         quality and completeness of this information vary from physician to physician. Improperly
         designed source documents contribute to billing error.

Data Entry

         Each time information changes hands, or is acted upon outside an automated system, the
         risk of error increases. Source documents pass through the hands of many people before
         information is entered into a software program. Employees of the physician, or an outside
         billing agency, may misinterpret source document information, mis-key information into the
         system or add, delete or modify information on source documents. Whether intentional or
         unintentional errors occur, the patient’s medical record may not support the claim
         submitted to Medicare. The claim will be incorrect, resulting in an overpayment or
         underpayment.



Billing Software                                   2                                     OEI-05-99-00100
MEDICAL BILLING SOFTWARE

         Basic billing software relies heavily on user knowledge and entry skills. It is widely
         distributed by Medicare fiscal agents and the private sector. Users key most, if not all,
         claims information onto a claims facsimile. The software manipulates these entries to
         produce an electronic claim. Typical errors involve entry errors, incorrect or missing
         patient or provider information, incorrect or incomplete diagnosis codes or invalid Current
         Procedural Terminology codes. Basic medical billing software, developed for mass
         markets, usually does not allow users to customize or override its programs. The greater
         risk of claim error is in data entry.

         Informational software augments basic software capabilities. It uses data bases and linked
         files to recall patient, provider, diagnostic and service information. Invalid code
         combinations, missing diagnosis and other errors that might prevent processing of a claim
         can be brought to the users attention before the claim is submitted for payment.
         Informational software does not appear to generate erroneous claims. It provides tools to
         help providers code their claims accurately. Vulnerabilities are more likely to stem from
         improper software configuration and use. For example, limited procedure coding options
         for office visits may steer claim decisions to higher valued procedure codes.

         Interactive software combines and enhances basic billing and informational software
         capabilities. It can give the user options for correcting problems detected by the software.
         What distinguishes interactive software from other medical billing software is its ability to
         provide the user with information and the likely consequences (no pay, more pay, less pay)
         of their decision.

         Proprietary software may present the greatest risk of misuse. This type of software is
         developed for a specific user. Inner workings of proprietary software may only be known
         to a single person or a select few. Hidden programs may add or modify claim information
         producing erroneous or fraudulent claims. Unlike commercially available software
         packages, manufactured for a broad market, proprietary software is created to meet a
         specific, single customer's needs. Commercial software that produced inaccurate claims
         has a greater chance of detection and of being reported by honest medical providers.
         Proprietary software presents a vulnerability to Medicare because it is created for, and used
         by, a select few. Proprietary software, and not commercial software, posses the greatest
         risk of being intentionally designed to produce improper or inaccurate claims.




Billing Software                                   3                                     OEI-05-99-00100
CONCLUSION

         It appears that programs written for commercial distribution to a large audience pose little
         risk of producing erroneous or false claims. Proprietary software, by its very nature,
         appears more likely to pose some risk of misuse or fraudulent use. As with paper claims,
         humans (and not software) may be the greatest cause of claim error.

         Billing Medicare has become a complex endeavor. The sheer number of diagnostic codes,
         procedure codes and other coding requirements increase the chance of billing error.
         Automation helps physicians, and other Medicare providers, manage data. It helps ensure
         that claims for reimbursement will meet Medicare standards for claims acceptance. The
         same tools used to ensure accurate billing can also be misused to maximize reimbursement
         and to submit false claims.

         The HCFA needs to evaluate its electronic claim safeguards to ensure that only agencies
         authorized by a provider submit claims. As further work is done in this area, the Health
         Care Financing Administration may want to consider:

         <	        Identifying and registering all clearinghouses and third-party billers. The Internal
                   Revenue Service requires preparers of tax returns to identify themselves. Medicare
                   should require claim preparers to do the same. This would provide an audit trail
                   and ensure that claims enter the Medicare system from authorized sources.

         <	        Improving safeguards to ensure that electronic claims are accepted only from
                   authorized sites and terminals. Passwords and new technologies, such as caller
                   identification, can be used to ensure that claims are received and processed only
                   from known terminals.

         <	        Educating the provider community concerning their liability for erroneous claims
                   submitted to Medicare using their provider number(s). The HCFA currently relies
                   on provider reviews of remittance notices to identify misuse of provider numbers.
                   These notices can be re-routed to a billing company, or another address, and
                   providers may never see them. Providers should be made aware of their
                   responsibility to review remittance notices.

HCFA COMMENTS

         We received comments to this report from HCFA. They concurred with all of our
         recommendations and provided technical comments. Where appropriate, this report was
         revised to incorporate those comments and suggestions. The full text of HCFA’s response
         can be found in Appendix A.




Billing Software                                    4                                     OEI-05-99-00100
                           TABLE                         OF               CONTENTS

                                                                                                                                     PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


CLAIM ORIGINATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Physicians and Other Providers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          Clearinghouses and Billing Agencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


BILLING PROCESSES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Data Origination . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

          Source Documents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

          Data Entry . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


MEDICAL BILLING SOFTWARE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          Basic . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   13

          Informational . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         14

          Interactive . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     15

          Proprietary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     17


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


          HCFA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


BIBLIOGRAPHY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23





Billing Software                                                      5                                                      OEI-05-99-00100
                              INTRODUCTION


PURPOSE

         To provide information about the different types of medical billing software and the
         processes used to prepare claims for submission to Medicare.


BACKGROUND

         The Health Care Financing Administration (HCFA) administers Medicare, the nation's
         largest health insurance program. Medicare provides health insurance to people age 65
         and over and those who have permanent kidney failure and certain people with disabilities.
         Medicare has two parts: Hospital Insurance (Part A) and Supplementary Medical
         Insurance (Part B). Part A helps patients pay hospitals and skilled nursing facilities for
         inpatient services. It also helps pay for home health services and hospice care. Medicare
         Part B helps patients pay for physician services, outpatient hospital services, medical
         equipment, supplies and other health services. More than 40 million people are currently
         enrolled in Medicare.

         In 1998, Medicare contractors received and processed more than 700 million claims.
         More than 80 percent of these claims were submitted electronically using medical billing
         software. Medicare also received 149 million Part A claims in 1998. Nearly all of which
         (96-97 percent) were submitted electronically. The remaining claims were submitted on
         paper claims and were manually entered into the claims processing system by contractor
         staff.

         In addition to claims preparation and submission, physicians, hospitals and other medical
         providers use medical billing software to help them manage financial and medical
         information. Computerization lowers costs and reduces the likelihood of error on medical
         claims submitted to more than 2,800 insurance companies. Medical billing software can
         be a stand-alone function or integrated with other aspects of medical practice such as
         patient medical records. It can be linked to the laboratory and other ancillary service
         areas. It can interface with other software including software that will analyze claims for
         completeness, accuracy and probability of being edited by Medicare or other insurers.




                                          )))))))))))
OEI-05-99-00100                                6                                   BILLING SOFTWARE
         Today, Medicare leads all other health care payers in electronic claims acceptance and
         processing. In the early eighties, Medicare gave providers free, or low cost, software so
         they could bill electronically. Initially, there were no national standards and each Medicare
         fiscal agent developed and distributed their own unique software. These different
         electronic formats hindered the development of affordable off-the-shelf medical billing
         software. Efforts by HCFA that led to standardization of record layouts and other data
         processing elements has spurred the development (and medical community acceptance) of
         software for electronic claim preparation and submission. “Off-the-shelf” billing software
         in a wide price range is now readily available to the medical community.

         Although Medicare provides free electronic billing software and support to assist
         providers, providers are not required to use Medicare’s software. If they choose, a
         provider can purchase their own software from a public/commercial source. The producer
         of the software ensures that their product complies with Medicare requirements for
         electronic claim submission.

         An unknown number of Medicare providers contract with an independent party
         (commonly referred to as a billing agency) to prepare their electronic claims. The
         providers furnish the billing agency with information about patients and the services
         provided to them. The billing agency enters the information into their computer systems
         and electronically submits the claims to Medicare using the provider’s Medicare
         authorization. Other providers enter claims information into their own computer system
         but contract with a clearinghouse to actually submit their claims to Medicare and other
         insurance companies.

         The HCFA captures information regarding billing agencies on provider enrollment
         applications.1 They also approve billing arrangements before an applicant can receive
         billing privileges. Providers not adhering to billing arrangements can have their
         assignment privileges revoked. Studies have shown that information on provider
         applications concerning billing agents is often outdated and inaccurate. The HCFA’s
         primary safeguard against billing agency fraud/abuse is a policy stating that:

                  “...all Medicare payments are made in the name of the provider and sent to a
                  ‘pay-to-address’ designated by the provider. In addition, monthly remittance
                  notices are sent to the provider showing what is billed under his/her name.
                  Therefore, the provider community has a responsibility to review the remittance
                  notice and notify the program if they believe false claims were generated.”


         1
                  In the future, enrollment information will be recorded in HCFA’s Provider Enrollment, Chain
and      Ownership System (PECOS). The PECOS will record all provider enrollment information and will
         capture some information on chain organizations.

                                               )))))))))))
OEI-05-99-00100                                     7                                       BILLING SOFTWARE
METHODOLOGY

         We researched more than 100 Internet sites maintained by manufacturers and/or
         distributors of medical billing software. At each site, we analyzed statements about
         products and medical billing capabilities. We used manufacturers and distributors’
         product descriptions to classify widely available commercial software into one of three
         categories based on the nature and extent of interaction between the software user and the
         software. A fourth category was created to discuss software not commercially available
         to the medical community. Observations and hands-on experience with software at
         medical conferences supplemented our Internet research. Several publications related to
         electronic billing were also reviewed.

         We also examined the various steps that occur in preparing claims for submission to
         Medicare for payment. Each step in the claims preparation processed was examined to
         determine whether any vulnerabilities might exist. We used the General Accounting
         Office’s (GAO) Audit Guide for Evaluating Internal Controls In Computer-Based Systems
         and other books on assessing controls and vulnerabilities in computerized systems. These
         controls and vulnerabilities are provided at the beginning of each discussion.

         As part of this inspection, we randomly selected two samples of Medicare contractors
         from the Chief Financial Officer’s 1998 audit of Medicare claims. Each sample consisted
         of 10 contractors selected at random without replacement. We contacted each contractor
         by telephone. We asked if they could readily identify which claims were submitted directly
         from medical providers and which claims were submitted through a clearinghouse or third-
         party biller. If the fiscal agent could not readily identify clearinghouses or third party
         billers from their claims data, we asked whether this information was available elsewhere
         in their system.

         This report focuses on processes used by physicians for billing patients, Medicare and
         other insurers. The same, or similar processes, are used by hospitals, clinics, laboratories
         and other medical suppliers to prepare their bills. The vulnerabilities discussed apply to all
         parties involved in Medicare claims preparation or submission.

         This review was conducted in accordance with the Quality Standards for Inspections
         issued by the President's Council on Integrity and Efficiency.




                                           )))))))))))
OEI-05-99-00100                                 8                                    BILLING SOFTWARE
CLAIM ORIGINATION

Physicians and Other Providers

         Controlling access to Medicare's computer systems by identifying and verifying persons
         who try to gain access reduces risk and potential adverse impact that unauthorized or
         malicious acts could have on the Medicare program. (GAO. Pages 84 & 99)

         Since 1990, Medicare has required physicians and other providers of medical services to
         submit claims directly to Medicare on behalf of beneficiaries. The increased workload and
         increasing complexity of procedure and diagnostic coding has encouraged physicians to
         turn to computer automation to improve efficiency.

         Physicians and other medical service suppliers must be authorized to bill Medicare
         electronically. Each is given a unique number (submitter number) to use when submitting
         claims electronically. We were unable to determine how many electronic claims Medicare
         receives directly from physicians and other medical providers or from third parties billing
         on their behalf. We found that Medicare can identify providers who have requested and
         obtained a submitter number; however, this does not mean that the submitter number
         shown on a claim is actually the party that actually submitted claims to the Medicare
         system. An unknown number of providers allow billing companies to use their submitter
         number. Medicare assumes the provider is sending in claims when, in fact, anyone with a
         computer, modem and access to a provider's submitter number and patient's health
         insurance number could be sending claims to Medicare. The potential for misuse of
         submitter numbers is a vulnerability not adequately addressed by Medicare.

Clearinghouses and Other Third-Party Billers

         Audit trails are necessary to trace the flow of data. They identify the source of the claim,
         and all persons or parties through whom the claim passed before it was received by
         Medicare. (Porter & Perry. Pages 103 - 104)

         Claims entering the Medicare program via a clearinghouse or billing agency do so using
         the provider’s submitter number. Consequently, Medicare is unable to identify most of
         the clearinghouses and billing agencies actually submitting claims to Medicare.

         We tried to determine how many claims enter the Medicare system from a third party only
         to discover that many carriers and intermediaries have no way of knowing who actually
         submitted the claim to Medicare. Inability to assess whether a claim came directly from a
         provider or passed through the hands of a third party represents a vulnerability in
         Medicare program safeguards. Medicare cannot determine whether claims enter their
         system from an authorized biller's site and computer or from unauthorized sites and


                                           )))))))))))
OEI-05-99-00100                                 9                                  BILLING SOFTWARE
         computers. Billing companies, their employees and employees of providers have access to
         patient and provider information needed to access the Medicare system. This information
         can be used (without a providers knowledge) to generate false claims.

         Locating information about clearinghouses, third-party billers or billing services is not
         easily done. A manual review of provider applications for a Medicare billing number will,
         in some cases, indicate that claims will be submitted to Medicare via a third party. Our
         experience, during other studies, is that the information in the carrier’s provider files is
         often obsolete or inaccurate.

         Many clearinghouses and billing agencies use the same commercial billing software
         packages available to hospitals, physicians and other medical suppliers. Some have
         developed their own proprietary software. The vulnerabilities discussed in this report
         apply to all parties involved in Medicare claims preparation or submission.

         In an unrelated study, we were told by State Medicaid Agencies that third party billers and
         clearinghouses were an area of concern. Clearinghouses and third-party billers charge by
         the claim and States feel that this may serve as an incentive to split claims. At least one
         State was concerned that they did not know who actually submitted the claim or from
         where the claim was submitted. They felt that anyone with access to a physician’s
         electronic billing number and access to a telephone could submit false claims for payment.


         More than 30 billing individuals/entities have been excluded from participation in
         Medicare and State Medicaid programs. There are also a number of open criminal cases
         involving billing agency fraud. In most cases, these companies used the information they
         obtained from legitimate providers to prepare and submit false claims. In some cases, the
         billing companies totally fabricated claim information and billed for services not rendered.
         Other problems with billing companies include unbundling of services, upcoding, adding
         services and diagnostic information and billing more than one carrier for the same services
         provided to a patient.


THE BILLING PROCESSES

         Providers and billing companies can submit claims to Medicare that cause payment errors.
         However, errors on claims can occur long before an actual claim is produced. Providers,
         their employees and subcontractors may add, delete or modify potential claim information
         at several points in the billing process. Vulnerabilities inherent in billing processes affect
         claim accuracy.




                                            )))))))))))
OEI-05-99-00100                                  10                                  BILLING SOFTWARE
Data Origination

         “It is important to establish control of the data as close to the point of origination as
         possible, since the remainder of ...[the processing steps] depends upon the accuracy of
         source data.” (GAO. Page 141)

         For some patients, the billing process begins when they schedule an office visit. Some
         medical providers have integrated their patient appointment software with their billing
         software. In these systems, the billing software system is prepared to execute a claim for
         each patient scheduled, using information already in the billing system, unless the
         appointment is canceled. In these instances, patients who fail to keep their appointment
         may still be billed for services.

         For most patients, the billing process begins after a physician or other medical supplier
         provides services to them. Information about a patient visit and services provided is
         recorded in the patient’s medical chart by the physician usually during the visit. Nearly all
         physicians make notes in the patient’s chart during a patient visit. Many physicians use
         their handwritten notes as reminders and as a guide when dictating patient visit
         information for transcribing. Diagnostic and service information about the patient visit is
         very rarely coded directly into medical billing software by physicians and other medical
         service providers.2 This information is usually conveyed to the person or entity
         responsible for preparing a bill via a “source document” completed at the end of the
         patient visit.

Source Documents

         “Special purpose forms should be used to make sure the preparer initially records a
         transaction correctly and in a uniform format.” (GAO. Page 142)

         Source documents help promote accurate initial recording of information that will be used
         to generate claims. Missing or inaccurate entries exposes physicians and other medical
         suppliers to payment errors. These errors could result in an overpayment or under
         payment to the provider.

         Source documents can be preprinted forms completed by the physician or handwritten
         notes made by the doctor or notes made by other office staff for a physician. Whether
         formal or informal, all source documents provide information needed for billing. The
         source document conveys information from the doctor or other medical supplier to the


         2
           New Technologies (such as voice recognition or bar coding) and acceptance of electronic records and
systems by physicians and the medical community could eventually lead to direct entry into the system and the
elimination of source documents.

                                               )))))))))))
OEI-05-99-00100                                     11                                       BILLING SOFTWARE
         person responsible for entering information about the patient encounter into the billing
         system. The quality and completeness of this information varies from physician to
         physician. We have attended billing seminars where billing personnel expressed frustration
         at their inability to get their physicians to provide diagnostic information.

         Source documents are usually tailored to meet specific physician and medical supplier
         needs. This is usually done by listing only the most common procedures and services
         provided to patients. The physician simply checks off the procedure or service provided
         or hand enters services not on the preprinted form in space provided for this purpose.
         While most physicians use preprinted forms, some do not. These physicians jot down the
         information on a piece of paper or verbally inform office staff as to what services were
         provided to a patient. In rare cases, physicians may enter their own claim information
         directly into their own computer system.

         Source documents are used to prepare the actual bills submitted to Medicare. Their
         design can influence billing decisions, possibly steering the user to procedure codes that
         have higher payment. Source documents may be ambiguous, leaving the user uncertain as
         to actual diagnosis and treatment provided to a patient. If improperly completed,
         documentation in the patient’s medical file will not support the services billed and the
         resulting claim will be incorrect.

         Improperly designed source documents that limit coding options, fragment procedure
         codes or otherwise affect the services billed to Medicare also contribute to billing error.
         Recent action by the Justice Department seeks recovery of millions of dollars in
         overpayments arising out of source documents that limited procedure code selection to
         higher valued codes. A number of cases involving improperly designed source documents
         that fragmented services, added services or upcoded services have also been successfully
         pursed by the Justice Department in recent years.

Data Entry

         Each time information changes hands or is acted upon outside an automated system the
         risk of error increases. (Porter & Perry. Pages 221-222. Fitzgerald. Pages 16 - 22)

         Source documents completed during the office visit are usually given to a designated
         person within the physician’s office. This person ensures that source documents for each
         patient seen that day are collected. They may, or may not, review them for completeness.
         They may add, delete or modify the entries. For example, when a physician performs a
         procedure not listed on their preprinted source document, they note the service provided
         in space often provided for this purpose. Someone else may add the procedure code,
         diagnosis code and fee to the source document.




                                          )))))))))))
OEI-05-99-00100                                12                                  BILLING SOFTWARE
         Completed source documents can be entered into the physician’s own billing system and
         forwarded directly to Medicare. They may be entered into the physician’s system and
         subsequently sent to a clearinghouse which, in turn, submits the claims to Medicare.
         Finally, source documents may be sent to an outside billing agency that will enter the data
         and submit it to Medicare either directly or through a clearinghouse.

         The person who actually enters the data (whether an employee of the physician or an
         outside agency employee) uses the source document as a guide to identify patient,
         provider, diagnosis, procedure coding and other information needed for claim coding.
         They may also resolve any missing, incomplete or erroneous information detected either
         by computer software or document review.

         Employees of the physician, or an outside billing agency, may misinterpret source
         document information, mis-key information into the system or add, delete or modify
         information on source documents. For example, the physician notes “I & D,” [incision
         and drainage] on the source document. Another person (within or outside the physician’s
         office) will decide which one of the 10 incision and drainage codes will be billed. The
         wrong choice may effect coverage and payment. Additions to, deletion of and
         modifications of source document information by data entry persons and other reviewers
         may not be supported in the patient’s medical chart. Decisions made during the data entry
         process may reduce a physician’s Medicare payment or create an overpayment.


MEDICAL BILLING SOFTWARE

Basic Software

         Billing software that requires users to input extensive information increases the risk of
         claim error. (Fitzgerald. Pages 9 - 15)

         Basic medical billing software is widely distributed by Medicare fiscal agents and the
         private sector. Our review of Internet literature on medical billing software indicates that
         this type of software is inexpensive and in widespread use. Users of non interactive
         software key most, if not all, claims information onto a claim facsimile. The software
         manipulates these entries to produce an electronic claim. Typical errors involve entry
         errors, incorrect or missing patient or provider information, incorrect or incomplete
         diagnosis codes or invalid Current Procedural Terminology (CPT) codes.

         More sophisticated basic software may recall patient and provider billing information
         when a patient’s last name, Social Security number (SSN), medical record number or
         other identifier is entered. The user then enters line-by-line information about the medical
         services provided onto the partially completed claim.

                                           )))))))))))
OEI-05-99-00100                                 13                                  BILLING SOFTWARE
         Software feedback to the user, if any, is limited to program checks such as validity tests,
         completeness tests, logic tests and other conditions established by the software developer.
         Theses program checks may identify missing data required for processing. They may
         check to ensure that the SSN contains nine digits or that the procedure codes used to
         describe services are the correct length. If data entry errors exist, the software alerts the
         user. The user must determine how to resolve the problem(s) and re-enter the correct
         data.

         A vulnerability exists because each person handling source documents is in a position to
         misinterpret, mis-key or deliberately alter the original information recorded by the
         physician. Information needed to prepare a claim that must be manually researched
         increases the chance of billing error. The number of procedure codes, diagnosis codes
         and other information needed to produce a claim increases the likelihood that a billing
         error will occur.

Informational Software

         “...many operations previously performed manually are automated within [informational
         medical billing] system software.” (GAO. Page 97)

         Medical billing software has become more sophisticated, and many operations previously
         performed manually are now being linked to, or included in, billing software packages.
         Unlike basic software which relies heavily on user knowledge, judgement and entry skills,
         informational software uses internal data bases and dictionaries to increase productivity
         and minimize the number of entry errors.3 Medical billing software packages with no, or
         limited, data base and dictionary capabilities can be linked to other independent software
         packages specifically designed to meet a particular billing need. For example, software
         capable of recalling all diagnosis codes (ICD-9 codes) and all procedure codes is available.
         Related software packages can be linked to billing software or used to create dictionaries
         containing limited coding information.

         Another characteristic of informational billing software is the ability to recall patient and
         provider identifying information and in some cases the service items on the last claim
         submitted for payment. The user can then update the last bill by merely adding line items
         to the claim or deleting them. Adding line items to a claim is facilitated by the software’s
         data bases or dictionaries. As the user enters a code or service number, the system’s
         software automatically recalls the CPT codes, charge information and other pertinent
         information stored in the software’s data base(s). If the procedure code or diagnosis code


         3
            Dictionaries and data bases are often used synonymously. In this report, we use the term data bases to
refer to patient and provider information that is recalled when a patient’s social security number or other identifier
is entered. We use the term dictionary when referring to software that provides options for the user to select.

                                                 )))))))))))
OEI-05-99-00100                                       14                                         BILLING SOFTWARE
         is not in the software’s dictionaries, the software can be configured to accept additional
         codes and information or it can limit choices to those in the system. With a few keyboard
         entries the user can create a new claim using new information and information already
         stored within the system.

         Like basic medical billing software, informational billing software also provides
         information to the user about validity tests, completeness tests, logic tests and other
         program controls established by the software developer. It can be linked to other software
         packages designed to analyze claim information to see if it will pass Medicare and private
         sector scrutiny. It can edit services entered on a claim and notify the user of invalid code
         combinations, missing diagnosis and other errors that might prevent the timely processing
         of the claim. The user draws upon information provided by the system, and outside the
         system, to resolve errors identified by the software.

         Vulnerabilities inherent in information software are more likely to stem from manipulation
         of software configuration and data bases and not the software programs themselves.
         Limited procedure coding options may steer claim decisions to higher valued procedure
         codes and encourage the use of diagnostic codes not supported in the patient’s medical
         record. Ultimately it is the software user’s choices and decisions and not the software that
         affects the accuracy of claims submitted to Medicare. Improperly configured
         informational software data bases and dictionaries can be misused. Misuse increases the
         probability of error and exposes physicians and other users to potential payment errors.

Interactive Software

         Vendor software packages usually contain many options that can be used to generate a
         claim. These software packages can be vulnerable to misuse and inadvertent error.
         (GAO. Pages 97 - 105)

         Interactive medical billing software represents the state-of-the-art in software billing.
         Interactive software expedites data entry and offers users several options to facilitate
         claims processing. Bar coding is one option available that reduces input error. Other
         options include electronic links to an office laboratory or other medical services that allow
         the user to obtain billing information directly from the laboratory, other data files and
         other office areas. Interactive software recalls patient, provider and last claim information.
         The software recognizes multiple insurance payers and the different coding rules and
         codes used by them. Interactive systems can be programmed to link procedure codes to
         ensure the right code is submitted to each of the patient’s insurers. For example, a private
         insurance carrier may require the use of procedure code 36145 when billing for
         venipuncture. Medicare requires G0001 for the same service. The software automatically
         selects the right code for each insurer.




                                           )))))))))))
OEI-05-99-00100                                 15                                   BILLING SOFTWARE
         Interactive systems usually do more than give feedback that something is missing on a
         claim. They provide information to help the user correct the problem. For example, when
         the user enters an invalid CPT code, the interactive medical billing software advises that an
         invalid CPT was entered. The software may produce a list of valid codes in the system
         and prompts the user to select one of the codes or enter a new code. Some systems also
         show the expected payment for each code.

         Each software user decides what “prompts” will be in the system. These prompts may
         also provide feedback as to how coding will affect reimbursement, show other coding
         options and the expected Medicare reimbursement for each option. The user can accept a
         system prompt, bypass it or modify it. Interactive systems reduce entry errors. The
         software uses a form of artificial intelligence to “learn” from past claims activity which
         services will be paid or denied. Providers can also purchase additional software that
         analyzes their claim information for compliance with Medicare’s correct coding initiative.
         Software manufactures and others are also working to identify HCFA’s black box edits.4
         As the body of knowledge about these edits increases, software applications will no doubt
         be not far behind. What distinguishes interactive software from other medical billing
         software is its ability to provide the user with information and the likely consequences (no
         pay, more pay, less pay) of their decision.

         Data bases and dictionaries that restrict user choice of diagnostic codes, CPT codes, place
         of service codes and other claim data can contribute to payment errors.5 The system may
         be programmed with default diagnostic codes. Whenever medical services or tests are
         billed, the default diagnostic code can automatically be added to the claim to ensure that
         the service, procedure or supply billed to Medicare will avoid Medicare safeguards and be
         paid. The end result produces claims that are flawlessly executed; unfortunately, the
         medical record may not support the services billed to Medicare. Diagnostic information
         must be in the patient medical record for the date of service. If it is not, Medicare will
         recover any money paid in error.




         4
            The HCFA correct coding initiative (CCI) bundles individual procedures codes into a comprehensive
service code which reflects correct reimbursement. It also detects procedures billed separately that are unlikely to
be performed in combination. In addition to bundling and unbundling, the CCI checks to see if the most extensive
procedure is being billed and whether the claim meets medical standards of practice. The term black box refers to
proprietary software purchased by Medicare to screen claims. These edits are not published as part of the national
correct coding initiative; hence, the name “black box” edits. While HCFA has gone to great lengths to prevent
release of black box edits, a number of sources have published information about suspected black box edits.
         5
             Medicare requires that providers associate a diagnosis, symptom, complaint, condition or problem with
each service, procedure or supply billed to Medicare. They use the International Classification of Diseases, 9th
Revision (ICD-9). The ICD-9 codes provide information about the primary diagnosis or reason for a medical visit
(i.e., high blood pressure, ICD-9 code 401 ) and information about complications (i.e,. High blood pressure with
congestive heart failure, ICD-9 codes 402-405).

                                                )))))))))))
OEI-05-99-00100                                      16                                         BILLING SOFTWARE
Proprietary software

         “ Controls should be established to prevent unauthorized and potentially inaccurate
         computer changes from being incorporated into [the medical billing system]....”
         (GAO. Page 50)

         Software developed for a single individual or a small group probably posses the greatest
         risk of financial harm to the Medicare program. In some cases, the number of people
         involved in developing and implementing proprietary software is limited to one or two
         individuals. This reduces the likelihood that someone will see and correct programming
         that produces erroneous claims.

         The degree of risk associated with proprietary software is directly related to the number of
         individuals involved and the checks and balances used during development of software. A
         recent qui tam suit against a billing company revealed that the owners of the company
         configured their proprietary software to generated erroneous claims.6 They accomplished
         this by manipulating and using legitimate information about patients and providers already
         available in their system. The company agreed to pay $1.5 million to resolve allegations
         that the company defrauded Medicare and other health care programs.

         In another case, emergency room physicians contracted for billing services from a
         hospital.7 The physicians were unaware that the hospital had purchased and designed
         billing software that automatically upcoded the services of the physicians. The physicians
         were paid based on the codes they provided to the hospital billing department. The
         hospital kept the higher payment generated from upcoding. The hospital and physicians
         agreed to a civil settlement and paid more than $600,000 to settle the case.




         6
             U.S. v. Medaphis, Central District of California

         7
             U.S. v Saint Anthony-Mercy Hospital and Columbus Emergency Physicians, Inc.

                                                  )))))))))))
OEI-05-99-00100                                        17                                  BILLING SOFTWARE
CONCLUSION

         Billing Medicare has become a complex endeavor. The sheer number of diagnostic codes,
         procedure codes and other coding requirements increase the chance of billing error.
         Automation helps physicians, and other Medicare providers, manage data. It helps ensure
         that claims for reimbursement will meet Medicare standards for claims acceptance. The
         same tools used to ensure accurate billing can also be misused to maximize reimbursement
         and to submit false claims.

         The HCFA needs to evaluate its electronic claim safeguards and PECOS is a step in the
         right direction toward ensuring that only agencies authorized by a provider can submit
         claims. As further work is done in this area, HCFA may want to consider:

         <	       Identifying and registering all clearinghouses and third-party billers. The Internal
                  Revenue Service requires preparers of tax returns to identify themselves.
                  Medicare should require claim preparers to do the same. This would provide an
                  audit trail and ensure that claims enter the Medicare system from authorized
                  sources.

         <	       Improving safeguards to ensure that electronic claims are accepted only from
                  authorized sites and terminals. Passwords and new technologies, such as caller
                  identification, can be used to ensure that claims are received and processed only
                  from known terminals.

         <	       Educating the provider community concerning their liability for erroneous claims
                  submitted to Medicare using their provider number(s). The HCFA currently relies
                  on provider reviews of remittance notices to identify misuse of provider numbers.
                  These notices can be re-routed to a billing company, or another address, and
                  providers may never see them. Providers should be made aware of their
                  responsibility to review remittance notices.


HCFA COMMENTS

         We received comments to this report from HCFA. They concurred with all of our
         recommendations and provided technical comments. Where appropriate, this report was
         revised to incorporate those comments and suggestions. The full text of HCFA’s response
         can be found in Appendix A.




                                            )))))))))))
OEI-05-99-00100                                  18                                   BILLING SOFTWARE
                      APPENDIX A




                  Health Care Financing Administration
                         Response to this Report




                             )))))))))))
OEI-05-99-00100                   19                     BILLING SOFTWARE
                  )))))))))))
OEI-05-99-00100        20       BILLING SOFTWARE
                  )))))))))))
OEI-05-99-00100        21       BILLING SOFTWARE
                  )))))))))))
OEI-05-99-00100        22       BILLING SOFTWARE
                           BIBLIOGRAPHY




Fitzgerald, Jerry. Internal Controls for Computerized Systems. Redwood City, CA: Jerry
Fitzgerald & Associates, 1978.

U.S. General Accounting Office. Evaluating Internal Controls in Computer-Based Systems:
Audit Guide. Washington, DC, June 1981.

Porter, W. Thomas and Perry, William E. EDP Controls and Auditing, Third Edition. Kent
Publishing Company: Boston, MA, 1981.

U.S. General Accounting Office. Medicare Third-Party Billing Companies.
GAO/HEHS-99 -127R. Washington, DC, June 2, 1999.




                                       )))))))))))
OEI-05-99-00100                             23                               BILLING SOFTWARE
